No. 20-728

IN THE

iipttprente Court of tbe Entteb ibtateo
ADIDAS, AG,
Petitioner,
v.

NIKE, INC.,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,839 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 28, 2020.

Cohn Casey Hog
Wilson-Epes Printing Co., Inc.

